               OFFICE OF
        THE INSPECTOR GENERAL
    SOCIAL SECURITY ADMINISTRATION


     HEALTH INFORMATION TECHNOLOGY
    PROVIDED BY BETH ISRAEL DEACONESS
     MEDICAL CENTER AND MEDVIRGINIA

        October 2011   A-01-11-11117




    AUDIT REPORT




.
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      October 13, 2011                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Health Information Technology Provided by Beth Israel Deaconess Medical Center and
           MedVirginia (A-01-11-11117)


           OBJECTIVE
           Our objective was to assess the Social Security Administration's (SSA) pilots to
           exchange health information technology (health IT) records with Beth Israel Deaconess
           Medical Center (BIDMC) in Massachusetts and MedVirginia in Virginia.

           BACKGROUND
           Applicants for Social Security disability benefits must provide medical evidence to
           support their claim for benefits.1 SSA and the disability determination services (DDS)
           assist applicants with obtaining evidence, such as health records. 2 Annually, SSA
           requests more than 15 million health records from about 500,000 providers. 3 This
           makes SSA the nation’s largest non-clinical user of health records.

           In August 2008, SSA partnered with BIDMC to pilot the prototype application
           Medical Evidence Gathering and Analysis Through Health Information Technology
           (MEGAHIT) and develop standards for the patient-authorized release of health IT
           records. MEGAHIT allows SSA and BIDMC to exchange health IT records
           electronically. MEGAHIT

           1
            SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI) payments to eligible
           disabled individuals under the Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C.
           §§ 401 et seq. and 1381 et seq.
           2
            Once an individual files an application, an SSA field office determines whether the individual meets the
           non-disability criteria for benefits. The field office generally forwards the claim to the DDS in the State or
           other office with jurisdiction to determine whether the individual is disabled under SSA’s criteria. The
           Social Security Act §§ 221 and 1633(a), 42 U.S.C. §§ 421 and 1383b(a). See also 20 C.F.R.
           §§ 404.1601 et seq. and 416.1001 et seq.
           3
            Social Security Act § 223 (d)(5)(A) authorizes payment to any non-Federal medical provider, including
           physicians, for the “reasonable cost” of supplying health records that the Agency requests.
Page 2 - The Commissioner


•   identifies health care providers partnered with SSA;
•   processes and documents health IT record requests and responses without SSA or
    provider staff involvement;
•   formats health IT records into a readable document in an electronic folder; and
•   analyzes health IT records to identify potentially significant medical evidence, such
    as conditions that meet SSA’s Listing of Impairments. If the system identifies a
    condition that meets a Listing, it documents the electronic folder to alert the DDS. 4

This process typically takes a few minutes to complete. In comparison, the traditional
process of gathering health records by fax or regular mail can be labor-intensive for
both SSA and providers and can take several weeks.

In February 2009, SSA partnered with MedVirginia—a coalition of not-for-profit hospitals
and physicians—to expand the use of health IT to exchange records through the
Nationwide Health Information Network (NwHIN). NwHIN is a secure computer network
that connects patients, health care providers, and others involved in supporting health
care. SSA is the first Federal agency to receive health records via the NwHIN, which
MEGAHIT then processes. 5 (See Appendix B for SSA’s health IT process and
Appendix C for SSA’s health IT pilot participants.)

To conduct our review, we

•   gathered and evaluated information on SSA’s health IT pilots with BIDMC and
    MedVirginia;
•   met with SSA officials and staff;
•   obtained a file of 8,776 individuals with a health IT indicator on their electronic
    disability folder as of March 10, 2011, and randomly selected 100 cases for detailed
    analysis; and
•   obtained a file of 447 individuals with a health IT indicator established after
    May 7, 2011, and randomly selected 50 MedVirginia cases to determine whether all
    health IT record requests received a response.

(See Appendix D for additional information on our scope, methodology, and sample
results.)
4
  SSA’s Listing of Impairments categorizes conditions for each major body system the Agency considers
severe enough to prevent a claimant from working. If a condition meets or equals a Listing, the Agency
will find the claimant disabled. A condition meets a Listing when it satisfies all the criteria of a specified
listing. A condition equals a Listing when it is medically equal in severity and duration to the criteria of
any listing. SSA, POMS, DI 22001.020 (April 1, 2011).
5
  The NwHIN was established in 2004 to improve the quality and efficiency of health care by enabling
secure electronic health information exchange between health care organizations, such as pharmacies,
government, laboratories, and health care providers. The Office of the National Coordinator in the Office
of the Secretary for the Department of Health and Human Services facilitated the collaboration between
the public and private sector to create the NwHIN.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA’s health IT pilots reduced the time it took the Agency to receive health records and
make disability determinations.

SAMPLE RESULTS

Our review of 100 sample cases found SSA’s health IT pilots reduced the time it took to
receive health records. SSA’s MEGAHIT system automatically requested health IT
records from BIDMC and MedVirginia. As a result of these requests, SSA received
health IT records for 78 percent of the sample cases in 1 day. For the remaining cases,
SSA received a response indicating health IT records were not available for 16 percent
of the cases, and SSA received no reply for 6 percent of the cases. Therefore, based
on our sample, we estimated that from our population of 8,776 individuals,
   •   6,845 cases received health IT records within 1 day,
   •   1,404 cases did not have health IT records available, and
   •   527 cases did not receive a reply to SSA’s request for health IT records.

From our sample of 100 cases, we identified 45 where the Agency received both health
IT and traditional records from BIDMC or MedVirginia. For these cases, SSA received
health IT records faster than traditional records. Table 1 compares the average receipt
time of health records in these 45 cases.

    Table 1: Average Receipt Time for Health IT and Traditional Records from
                           BIDMC and MedVirginia
                                     Health IT Records          Traditional Records

 Average Receipt Time                     1 day                      16 days

                        In 16 of the 100 sample cases, the provider responded that health
 Health IT
                        IT records were not available. For example, in one case, the
 Records Not
                        system requested records from BIDMC using the claimant’s first,
 Available
                        middle, and last names. BIDMC responded that its patient files
                        did not match the Agency’s request because BIDMC’s files
included the patient’s first and last, but not middle, name. Therefore, the Agency’s
request was not an exact match, and the system did not identify the health IT records.
Subsequently, the Agency requested and received traditional records from BIDMC for
this claimant.

According to SSA, the system provides a claimant’s SSN, name (first, middle, last)
aliases, date of birth, and gender for the provider to match; however, each provider
determines how to implement automated matching criteria. Additionally, a traditional
request for health records matching criteria may be different than the health IT
system-to-system request for records.
Page 4 - The Commissioner


SSA is planning to implement a new protocol that will allow providers to review health IT
record requests manually. This will enable the provider to review the patient
authorization before releasing records to SSA. Currently, the patient match occurs
before any manual authorization. This new protocol could mitigate some State and
provider policy restrictions.

    No Reply      In six cases, MEGAHIT received no reply for health IT record
    Cases         requests from MedVirginia. Because MEGAHIT should receive a
                  response for all requests, we asked SSA why this occurred. The
Agency responded that these requests resulted in health IT records that the system
could not process. At that time, the system did not generate a response for this
scenario. However, SSA stated that, as of May 7, 2011, a new systems release had
addressed this issue. We reviewed a sample of cases and determined the issue had
been resolved.

    Health IT vs.      We also found that when the DDS made a disability determination
    Traditional        using only health IT records, it made the determination in fewer
    Records            days than when it used other traditional records (non-health IT).
                       Specifically, in eight sample cases, the DDS made a
determination using only health IT records.6 In the remaining 92 cases, the DDS
requested other traditional records.7 Table 2 compares the average processing times
for cases determined using only health IT records to cases determined using both
health IT and traditional records.

        Table 2: Average Processing Time for Cases Determined Using Health IT
             Records Only and Cases Determined Using Both Health IT and
                                 Traditional Records
                                            Health IT Records           Health IT and Traditional
                                                  Only                          Records
      Number of Cases 8                                         8                              87
      Average Processing Time                           20 days                            80 days

      Range of Processing Time                      1 to 83 days                     1 to 232 days




6
  We referred one case to SSA because the decisionmaker denied the claim without contacting other
traditional record sources. According to the Social Security Act §§ 223 (d)(5)(B) and 1614 (a)(3)(H),
42 U.S.C. §§ 423 (d)(5)(b) and 1382(a)(3)(H), the Agency must consider all evidence available in the
case record when deciding whether a claimant is disabled. SSA agreed that the decisionmaker should
have requested all medical records before making a determination.
7
    The average number of traditional records received per case was 4, ranging from 1 to 12.
8
 Disability determinations were still pending for 5 of the 92 cases when we conducted our review.
Therefore, the 80-day average shown in Table 1 is for the 87 cases in which SSA had made a
determination.
Page 5 - The Commissioner


For example, a Virginia man applied for disability benefits in February 2010 because of
esophageal cancer. The DDS received health IT records and determined he was
eligible for disability benefits in 1 day. This claimant received his first disability benefit
payment 29 days after he filed. Conversely, a Virginia woman applied for disability
benefits in September 2009 because of a visual impairment. The DDS received health
IT and traditional records. It took the DDS 98 days to determine she was disabled, and
she received her first disability benefit payment in January 2010—114 days after filing. 9

HEALTH IT RECORDS AND SSA’S MEDICAL LISTINGS

SSA designed MEGAHIT to analyze health IT records and identify conditions that meet
or equal SSA’s Listing of Impairments. If the system identifies a condition that meets or
equals a Listing, it automatically alerts the DDS. According to SSA, about 10 percent of
all disability claims meet or equal SSA’s Listing of Impairments.

In our sample of 100 cases, we found 1 case where MEGAHIT analyzed the health IT
record and identified a condition meeting SSA’s Listing of Impairments. The system
alerted the DDS, and the following day, the DDS confirmed that the condition met one of
SSA’s Listing of Impairments and allowed the claim.

AGENCY FUTURE HEALTH IT GOALS

Over time, SSA expects health IT to improve case processing time and overall
productivity while decreasing the cost per case. Additionally, the Agency anticipates
continuing to use health IT to improve the disability process and reduce time spent
exchanging records with health care providers.

As of April 2011, the average payment rate nationwide for traditional records was $15.
As an incentive for providers to exchange records electronically, SSA decided to pay
the $15 nationwide average rate for health IT records even though they are easier to
compile and send.

As the number of health IT providers increases, the Agency expects the $15 payment
rate to decrease. SSA’s goal is to reduce the rate gradually, potentially to $1 by Fiscal
Year 2017. Therefore, in January 2010, SSA announced it would periodically review
and update the payment rate. 10

SSA’s Health IT Fiscal Leadership and Workflow workgroup monitors the health IT
record payment rate and makes any necessary adjustments. This workgroup is also


9
 Our September 2009 report, Impact of the Social Security Administration's Claims Process on Disability
Beneficiaries (A-01-09-29084), stated that most participants believed their wait for benefits had an impact
on at least one aspect of their lives, such as their finances, access to medical care, or relationships.
10
  Rate of Payment for Medical Records Received Through Health IT Necessary to Make a Disability
Determination, 75 Fed. Reg. 1446 (January 11, 2010).
Page 6 - The Commissioner


responsible for identifying health IT fiscal responsibilities and processes, including
organizational roles and responsibilities, workload efforts, and short- and long-term
needs.

For example, if SSA received all records through health IT and modified the payment
rate from $15 to $5, the Agency could potentially save $150 million. 11 See Table 3 for
annual costs of health records at various rates.

           Table 3: Costs for Health IT Records at Various Payment Rates
                                        Annual Costs of Health IT Records Based on
      Payment for Health IT Record
                                                    15 Million Requests 12
                  $15                                   $225,000,000
                  $10                                   $150,000,000
                   $5                                    $75,000,000
                   $1                                    $15,000,000

The Congressional Budget Office estimates that approximately 90 percent of doctors
and 70 percent of hospitals will use health IT records by 2019. 13 As of April 2011, the
Agency had not established a timeline for receiving all records through health IT
because progress is dependent on industry development.

SSA has developed a plan for the expansion, enhancement, and management of health
IT. For example, the Agency plans to expand the use of health IT to its Office of
Disability Adjudication and Review, and to contract with other providers who maintain a
large volume of health IT records. As of June 2011, the Agency had awarded 12 health
IT contracts and planned to begin exchanging data with these providers by the end of
the calendar year. 14 (See Appendix E for SSA’s health IT contracts.)

Additionally, SSA is working on a joint health IT initiative with the Departments of
Veterans Affairs and Defense to exchange records through NwHIN. This initiative
should provide SSA access to the health records of military service personnel and
veterans who file for benefits.
11
  To calculate potential savings, we multiplied 15 million health records requested annually by the
$15 average payment rate for traditional records, totaling $225 million. We also calculated the potential
$5 rate totaling $75 million. We then subtracted $75 million from $225 million to calculate potential
savings.
12
  Annually, the Agency requests for more than 15 million health records from about 500,000 providers to
help make decisions on over 3 million disability claims.
13
  Making Health Care Work for American Families: Designing a High Performing Healthcare System:
                                                                                 th
Hearing Before S. Committee on Health, Committee on Energy and Commerce, 111 Congress
(March 10, 2009) (statement of Douglas W. Elmendorf, Director of Congressional Budget Office).
14
  In February 2009, the President signed the American Recovery and Reinvestment Act of 2009,
Pub. L. No. 111-5, § 703, 123 Stat. 115, 185 (2009), into law providing SSA $500 million to process
additional workloads resulting from the economic downturn. The Agency budgeted $24 million of these
funds to form health IT partnerships.
Page 7 - The Commissioner


CONCLUSION
We found SSA’s health IT pilots reduced the time it took the Agency to receive health
records and make disability determinations. This ties directly to SSA’s performance
measure to minimize the average processing time for initial disability claims. 15

As steward of its disability programs, SSA plans to expand the use of health IT to
streamline the disability process and maximize the advantages of electronic records.
We plan to monitor the Agency’s efforts and will conduct another review of health IT in
the future.

AGENCY COMMENTS
SSA agreed with the report’s findings and conclusions. See Appendix F.




                                            Patrick P. O’Carroll, Jr.




15
     SSA, FY 2010 Performance and Accountability Report, Performance Measure 2.1c, page 15.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Health Information Technology
             Process

APPENDIX C – The Social Security Administration’s Health Information Technology
             Pilot Participants

APPENDIX D – Scope, Methodology, and Sample Results

APPENDIX E – American Recovery and Reinvestment Act of 2009 Funding for Health
             Information Technology

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
BIDMC         Beth Israel Deaconess Medical Center
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
Fed. Reg.     Federal Register
Health IT     Health Information and Technology
MEGAHIT       Medical Evidence Gathering and Analysis Through Health
              Information Technology
NwHIN         Nationwide Health Information Network
Pub. L. No.   Public Law Number
POMS          Program Operations Manual System
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                    Appendix B

The Social Security Administration’s Health
Information Technology Process
In August 2008, the Social Security Administration (SSA) partnered with Beth Israel
Deaconess Medical Center in Massachusetts to pilot the prototype process Medical
Evidence Gathering and Analysis Through Health Information Technology (MEGAHIT).
In February 2009, SSA partnered with MedVirginia in Virginia—a coalition of not-for-
profit hospitals and physicians—to expand health information technology (health IT) and
use the Nationwide Health Information Network. See chart B-1 for SSA’s health IT
process.
                      Chart B-1: Flow of SSA’s Health IT Process
                                                                    Appendix C

The Social Security Administration’s Health
Information Technology Pilot Participants
The Social Security Administration partnered with Beth Israel Deaconess Medical
Center in August 2008 and MedVirginia in February 2009 to pilot the exchange of
patient-authorized health information technology (health IT) records. Table C-1 shows
pilot participants by provider.

                Table C-1: Health IT Pilot Participants by Provider
 Beth Israel Deaconess Medical Center Participants               Location
Beth Israel Deaconess Healthcare                        Chelsea, Massachusetts
Beth Israel Deaconess Medical Center                    Boston, Massachusetts
Beth Israel Deaconess Cancer Care                       Waltham, Massachusetts
Beth Israel Deaconess Hospital                          Needham, Massachusetts
Beth Israel Deaconess Medical Care Center               Lexington, Massachusetts
Bowdoin Street Community Health Center                  Boston, Massachusetts
               MedVirginia Participants                          Location
Bon Secours Cancer Center at Reynolds Richmond
                                                        Richmond, Virginia
Radiation Oncology Center
Bon Secours Cancer Institute at St. Francis             Midlothian, Virginia
Bon Secours Imaging Center Reynolds Crossing            Richmond, Virginia
Bon Secours OccuHealth Alliance                         Chester, Virginia
Bon Secours OccuHealth Alliance                         Richmond, Virginia
Bon Secours Sleep Disorders Center                      Midlothian, Virginia
Bon Secours Sleep Lab at Memorial Regional Medical
                                                        Mechanicsville, Virginia
Center
Bon Secours Sleep Lab                                   Richmond, Virginia
Bremo Road Outpatient Infusion Center                   Richmond, Virginia
Hanover Medical Park Outpatient Infusion Center         Mechanicsville, Virginia
Imaging at Belvidere                                    Richmond, Virginia
Laburnum Diagnostic Imaging Center                      Richmond, Virginia
Memorial Regional Medical Center                        Mechanicsville, Virginia
Richmond Community Hospital                             Richmond, Virginia
Sheltering Arms Physical Rehabilitation Hospital
                                                        Mechanicsville, Virginia
Memorial Regional Campus
Sheltering Arms Physical Rehabilitation Hospital
                                                        Midlothian, Virginia
St. Francis Campus
St. Francis Imaging Center                              Richmond, Virginia
St. Francis Medical Center                              Midlothian, Virginia
St. Mary's Hospital                                     Richmond, Virginia
                                                                                  Appendix D

Scope, Methodology, and Sample Results
To accomplish our audit objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures as well as other
    applicable Federal laws and regulations.

•   Reviewed Office of the Inspector General report, Funding of Health Information
    Technology Under the American Recovery and Reinvestment Act of 2009
    (A-01-09-29155), July 2009.

•   Gathered and evaluated information on SSA’s health information technology (health
    IT) pilots with Beth Israel Deaconess Medical Center and MedVirginia.

•   Met with SSA officials and staff from the Offices of Vision and Strategy, Disability
    Programs, and Disability Determinations.

•   Obtained a file of 8,776 individuals with a health IT indicator on SSA’s electronic
    disability folder as of March 10, 2011. From this population, we selected a random
    sample of 100 cases for detailed analysis. 1 For each case, we:

     Reviewed SSA’s electronic disability folder.

     Determined whether health record(s) or other response was received as a result
      of the health IT request.

     Documented and quantified whether the Agency requested other traditional
      record(s), either from health IT partner providers or from other providers.

     Calculated the number of days it took the disability determination services to
      make the medical determination after the claims application date.

•   Obtained a file of 423 individuals with a health IT indicator established on their SSA
    electronic disability folder after April 15, 2011. From this population, we selected a
    random sample of 50 MedVirginia cases and determined not all health IT record
    requests received a response. We discussed our findings with SSA, which stated
    the issue had been addressed by a May 7, 2011 system release.



1
 In one of our sampled cases, the individual withdrew her claim for benefits. Therefore, we randomly
selected another case from our population as a replacement.

                                                  D-1
•    Obtained a file of 447 individuals with a health IT indicator established on their SSA
     electronic disability folder after May 7, 2011. From this population, we selected a
     random sample of 50 MedVirginia cases to determine whether all health IT record
     requests received a response.

We performed our review between March and July 2011 in Boston, Massachusetts. We
tested the data obtained in our audit and determined them to be sufficiently reliable for
meet our objective. The entity audited was SSA’s Office of Vision and Strategy under
the Office of Systems. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

SAMPLE RESULTS, ESTIMATES, AND PROJECTIONS

    Table D-1: Population and Sample Size
    Population Size                                                               8,776
    Sample Size                                                                     100

                                                                            Number of
 Table D-2: Cases that Received Health IT Records
                                                                              Cases
 Sample Results                                                                      78
 Point Estimate                                                                   6,845
 Projection Lower Limit                                                           6,156
 Projection Upper Limit                                                           7,422
Note: All projections are at the 90-percent confidence level.

 Table D-3: Cases that Received Response that Health IT                     Number of
 Records Were Unavailable                                                     Cases
 Sample Results                                                                      16
 Point Estimate                                                                   1,404
 Projection Lower Limit                                                            907
 Projection Upper Limit                                                           2,039
Note: All projections are at the 90-percent confidence level.




                                                    D-2
                                                                Number of
 Table D-4: Cases that Received No Reply
                                                                  Cases
 Sample Results                                                        6
 Point Estimate                                                      527
 Projection Lower Limit                                              234
 Projection Upper Limit                                             1,006
Note: All projections are at the 90-percent confidence level.




                                                    D-3
                                                                                  Appendix E

American Recovery and Reinvestment Act of 2009
Funding for Health Information Technology
In February 2010, the Social Security Administration (SSA) awarded $13.3 million in
American Recovery and Reinvestment Act of 2009 funding to 12 health care providers
and networks across the country to exchange health information technology (health IT)
records. 1 See Table E-1.


          Table E-1: Health Care Providers Awarded American Recovery and
      Reinvestment Act of 2009 Funding for Health Information Technology as of
                                         June 2011
                                Facility                            Location
    Community Health Information Collaborative               Minnesota
    Douglas County Individual Practice Association           Oregon
    EHR Doctors, Inc.                                        Texas
                                                             Indiana
    HealthBridge
                                                             Ohio
    Lovelace Clinic Foundation/New Mexico Health Information
                                                             New Mexico
    Collaboration
    Marshfield Clinic Research Foundation                    Wisconsin
    Central Virginia Health Network/MedVirginia              Virginia
                                                             California
    Oregon Community Health Information Network              Oregon
                                                             Washington
    Regenstrief Institute, Inc.                              Indiana
                                                             Washington
    Science Applications International Corporation
                                                             Idaho
    Southeastern Michigan Health Association                 Michigan
    Center for Health Communities, Wright State University,  Ohio
    Healthlink                                               Oregon




1
  In February 2009, the President signed the American Recovery and Reinvestment Act of 2009,
Pub. L. No. 111-5, § 703, 123 Stat. 115, 185 (2009), into law, which provided SSA $500 million to process
additional workloads resulting from the economic downturn. The Agency budgeted $24 million of these
funds to form health IT partnerships. As of June 2011, our office was conducting a review of American
Recovery and Reinvestment Act of 2009 funding that SSA awarded to health care providers to exchange
health IT records.
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 7, 2011                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Health Information Technology Provided by Beth
           Israel Deaconess Medical Center and MedVirgina” (A-01-11-11117)--INFORMATION

           Thank you for the opportunity to review the draft report. We agree with the report’s
           findings/conclusions and have no additional comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord, at (410) 966-5787.
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division
   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Toli, Auditor
   David York, Program Analyst
   Kevin Joyce, IT Specialist
   Patrick Kennedy, IT Project Manager
   Joseph Cross, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-11-11117.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
